           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Airline Industry Metrics                      Date:    January 7, 2003



  From:    Kenneth M. Mead                                          Reply to   JA-50 x69970
                                                                    Attn of:
           Inspector General
    To:    The Secretary
           Deputy Secretary
           Chief of Staff
           Associate Deputy Secretary
           Assistant Secretary for Aviation
            and International Affairs
           Assistant Secretary for Transportation Policy
           Federal Aviation Administrator
           Director, Bureau of Transportation Statistics


           Attached is the third in a series of periodic updates to our airline industry metrics.
           These metrics were developed for monitoring airline industry trends relating to
           domestic system demand and capacity, performance, finances, and air service at
           small airports.

           If you have any questions or if I can be of further assistance, please feel free to
           contact me at (202) 366-1959, or Mark R. Dayton, Assistant Inspector General
           for Competition and Economic Analysis, at (202) 366-9970.

           Attachment


                                                     #
  AIRLINE INDUSTRY METRICS
       Trends on Demand and Capacity,
        Aviation System Performance,
Airline Finances, and Service to Small Airports

           Number: CC-2003-007
        Date Issued: January 7, 2003
                     SUMMARY OF AIRLINE INDUSTRY METRICS
This is the third in a series of periodic updates to our airline industry metrics. As a result
of the September 11, 2001 terrorist attacks and the downturn in business travel that has
persisted since early last year, the airline industry is facing its greatest challenge since
deregulation.

Based on data obtained from the U.S. Department of Transportation (DOT), Federal
Aviation Administration (FAA), and Air Transport Association (ATA), the Office of
Inspector General has developed 30 metrics (see Figures 1 through 30, pages 5 through 8)
for monitoring airline industry trends relating to domestic system demand and capacity,
performance, finances, and air service at small airports.1 Although subject to change,
these metrics provide decisionmakers with past, present, and future indicators of
domestic service levels and general state of the airline industry.

I.       Air Service Demand and Capacity
         ü AIR TRAFFIC DEMAND: The September 11, 2001 terrorist attacks, combined with a
           cut-back in business travel, had a major, and perhaps, long-lasting impact on air traffic
           demand. Although air travelers had begun to return from the sharp decline following
           September 11, the numbers appear to be softening again. Overall, domestic
           enplanements were down nearly 18 percent in November 2002 from November 2000.
           [Figure 1]

         ü CAPACITY VERSUS DEMAND: Actual domestic capacity as measured in available seat
           miles (ASMs) tended to return to pre-September 11, 2001 levels at a faster rate than
           passenger demand as measured by revenue passenger miles—especially during the
           spring and early summer of 2002. While capacity and demand reached some level of
           equilibrium as of August 2002, recent declines in air travelers have forced the airlines
           to make further cuts in their flight schedules. Overall, actual capacity was down nearly
           10 percent between November 2000 and November 2002, as compared to a 14 percent
           decline in passenger demand. [Figure 2]

         ü FLIGHT OPERATIONS: FAA’s Air Route Traffic Control Centers reported handling a
           growing number of flight operations during the spring and summer, with July 2002
           numbers off only about 1 percent from July 2000.2 By November 2002, however, flight
           operations were down nearly 7 percent from November 2000. [Figure 3]

         ü AIRLINE SCHEDULES—FALL/WINTER 2002: Although airline schedules showed some
           initial improvement during the spring and summer months from the sharp drop off after
           September 11, 2001, this trend appears to be reversing, with the airlines scheduling
           11 and 12 percent fewer flights and passenger seats, respectively (as well as 9 percent

     1
          Due to the sizable impact that the terrorist attacks had on domestic flight service during the latter part of
          2001, we used 2000 as the base year in many of our metrics.
     2
          Includes both scheduled and non-scheduled (e.g., general aviation and military) air traffic.
                                                                                                               Page 1
         fewer ASMs) in December 2002 versus December 2000. Moreover, airline schedules
         for the first 3 months of 2003 show no improvement, with flights and passenger seats
         remaining down between 11 and 12 percent from the same period in 2000. [Figure 4]

      ü REGIONAL DIFFERENCES: When comparing all airports, the Northeast region
        continues to experience the largest decline in air service as compared to other parts of
        the country. For example, between December 2000 and December 2002, the Northeast
        experienced an 18 percent drop in scheduled passenger seats, versus the South
        (-12 percent), West (-12 percent), and Midwest (-10 percent). [Figure 5]

      ü AIRPORT RECOVERY RATES: The recovery rate among the Nation’s largest airports
        has varied significantly as measured in scheduled passenger seats. For example, only
        Fort Lauderdale saw a small increase (+1 percent) between December 2000 and
        December 2002. All other large airports witnessed varying levels of decline during this
        time period—the 10 worst being: Boston (-26 percent), San Francisco (-26 percent),
        Pittsburgh (-26 percent), Honolulu (-24 percent), Los Angeles (-24 percent), LaGuardia
        (-22 percent), Reagan National (-20 percent), Newark (-18 percent), Dulles
        (-16 percent), and Orlando (-14 percent). [Figure 6]

      ü LOSS OF SHORT HAUL AIR SERVICE: For scheduled flights less than 250 miles, nearly
        one in five (or 19 percent) were dropped between December 2000 and December 2002.
        In comparison, flights of 500 miles or more experienced far smaller declines.
        [Figure 7]

      ü LOW-FARE AIRLINES GAIN MARKET SHARE: In contrast to the major airlines, many
        low-fare airlines have continued to expand, with offered capacity (as measured in
        passenger seats) increasing over 6 percent between December 2000 and
        December 2002.3 Low-fare airlines have also seen their share of domestic air service
        grow from 16 percent to 20 percent during this same period. [Figure 8]

      ü GROWTH IN REGIONAL JET (RJ) FLIGHTS: Another significant development involves
        the phenomenal growth in RJ flights. Scheduled flights involving RJs increased
        80 percent (from 88,474 to 159,662) between December 2000 and December 2002.
        This compares to flights involving other aircraft types, which experienced either far less
        growth or sharp declines, including piston (+11 percent), turboprop (-36 percent), and
        large jets (-18 percent). Overall, the portion of scheduled flights involving RJs has
        grown from 7 percent to 20 percent between December 1999 and December 2002.
        [Figures 9 and 10]


II. Air System Performance
      ü FLIGHT DELAYS AND CANCELLATIONS: So far this year, both flight delays and
        cancellations remained well below levels established in 2000 (as well as 1999). For
        example, between November 2000 and November 2002, arrival delays were down

  3
       Low fare carriers are AirTran Airways, American Trans Air, Frontier Airlines, JetBlue Airways, National
       Airlines, Pan American Airways, Southwest Airlines, Spirit Airlines, Sun Country, and Vanguard Airlines.
       However, Vanguard Airlines and National Airlines ceased operations in July and November 2002,
       respectively.
                                                                                                       Page 2
         54 percent (81,731 to 37,357), while cancellations dropped over 78 percent (8,150 to
         1,767). Likewise, gate departure delays were down nearly 60 percent (70,997 to
         28,495). [Figures 11, 12, and 17]

      ü OTHER INDICATORS OF DELAYS: Other indicators of flight delays were also down in
        November 2002 from November 2000, including the percentage of flights arriving late
        (from 26 percent to 14 percent), the percentage of flights departing late (from
        22 percent to 11 percent), the average length of arrival delays (from 48 minutes to
        43 minutes), and the average length of departure delays (from 50 minutes to
        46 minutes). [Figures 13, 14, 15, and 16]


III. Airline Finances
      ü BUSINESS AND LEISURE TRAVEL: The drop in higher-fare business travelers, which
        began before September 11, has especially hurt the airlines. Although business
        (first-class and full-fare coach) and leisure traffic numbers improved significantly in the
        months immediately following the terrorist attacks, both have remained consistently
        down for the first 11 months of 2002 versus 2000—with November numbers showing a
        decline of approximately 32 and 19 percent, respectively. [Figure 18]

      ü AIRLINE YIELDS: The loss in business travel significantly affected airline yields,
        which were down for most of 2001 and into 2002. As of November 2002, airline yields
        from passenger traffic were down nearly 20 percent from November 2000. [Figure 19]

      ü AIRLINE LOAD FACTORS: Due to continued limits in capacity and the gradual return
        of passengers, aircraft load factors for the quarter ending June 2002 have returned to
        last year’s levels of approximately 74 percent. Yet, the “break even” load factor (the
        average percentage of paying passengers on all flights needed to cover airline costs) has
        risen 7 percentage points (76 to 83) during this same time period. Among the major
        airlines, the break even load factor ranged from a low of 59 percent for Southwest to a
        high of 90 percent for United. [Figure 20]

      ü AIRLINE REVENUES AND EXPENSES: Airline operating revenue declined at a much
        higher rate than expenses during 2002. For the 3 months ending June 2002 as
        compared to the same period in 2000, operating revenue declined 20 percent whereas
        operating expenses declined 3 percent.4 [Figure 21]

      ü AIRLINE DEBTS TO INVESTMENTS: Due to large operating losses, airline debt to
        investment ratios climbed from 50 percent in 2000 to 66 percent in 2001. For the
        quarter ending June 2002, ratios for the major airlines ranged from 29 percent for
        Southwest to 129 percent for US Airways.5 Debts to investments provide an indicator
        of airline exposure to fluctuations in demand and revenue. [Figures 22 and 23]

  4
       Airline operating revenue was also affected by a sharp drop in domestic mail shipments, which declined
       nearly 60 percent during the first 11 months of 2002, versus the same period in 2000.
  5
       DOT publishes debt to total investment ratios in the Major Airline Quarterly Financial Review. Debt is
       defined as long-term debt, capital leases, and advances from associated companies, less unamortized debt
       expenses. Total investment includes all the debt items plus stockholder’s equity.
                                                                                                       Page 3
    ü AIRPORT AND AIRWAY TRUST FUND: Lower demand and ticket prices have also
      reduced tax collections for the airport and airway trust fund. Prior to September 11,
      2001, FAA projected overall collections of $11.2 billion for Fiscal Year (FY) 2002.
      FAA now estimates $8.8 billion in tax collections in FY 2002, a drop of over
      21 percent. [Figure 24]


IV. Air Service at Small Airports
    ü CHANGES IN AIR SERVICE: Since early 2001, the smallest airports (non-hubs) have
      experienced deeper cuts in air service than their larger counterparts. As of
      December 2002, non-hub airports saw nearly a 15 percent reduction in scheduled
      passenger seats from December 2000. This compares to a 12 percent reduction for the
      larger airports. Airline schedules currently project additional cuts by March 2003, with
      non-hub and larger sized airports down 19 percent and 11 percent, respectively, from
      March 2000. [Figure 25]

    ü REGIONAL DIFFERENCES: Non-hub airports in the Northeast and Midwest saw a far
      larger drop in air service than other parts of the country. For example, between
      December 2000 and December 2002, these two regions lost 31 and 23 percent of their
      scheduled passenger seats, respectively, as compared to smaller declines in the South
      (-17 percent) and West (-7 percent). [Figure 26]

    ü ACCESS TO 31 LARGE AIRPORTS: Non-hub airports also experienced a greater loss of
      direct service to and from the 31 largest airports than did other airports. Non-hub
      airports lost 20 percent of scheduled flights to the 31 largest airports between
      December 2000 and December 2002. In comparison, small, medium, and large airports
      experienced reductions of only 8 percent to 12 percent. [Figure 27]

    ü RJS REPLACING LARGER JETS AND TURBOPROPS: The loss in air service at non-hub
      airports is being partially offset by a large increase in RJ flights. Overall, scheduled
      flights involving RJs increased 96 percent between December 2000 and
      December 2002. In comparison, flights involving other aircraft types experienced
      either far less growth or sharp declines, including piston (+13 percent), turboprop
      (-29 percent), and large jets (-28 percent). [Figure 28]

    ü LOW FARE SERVICE TO NON-HUB AIRPORTS: Non-hub airports can anticipate little or
      no relief from the low-fare airlines—even though these airlines are one of the few
      segments of the industry experiencing continued expansion. For example, between
      December 2000 and December 2002, low-fare airlines increased offered capacity (as
      measured in passenger seats) to large, medium, and small airports from 5 to 11 percent,
      while cutting service at non-hub airports by almost 25 percent. [Figure 29]

    ü ESSENTIAL AIR SERVICE (EAS): In the aftermath of September 11, 2001,
      congressional funding and the number of small communities requesting EAS subsidies
      increased significantly. For example, between FYs 2001 and 2003, funding is projected
      to grow 126 percent ($50 million to $113 million), while the number of subsidized
      communities will increase 25 percent (100 to 125). [Figure 30]


                                                                                       Page 4
                                                                                                                                                                              Airline Industry Metrics


                                   Figure 1: Percent Change in Revenue Passenger                                                                                                                                                                           Figure 2: Percent Change in Available Seat Miles vs.
                                        Enplanements from 2000 (ATA Data)                                                                                                                                                                                    Revenue Passenger Miles from 2000 (ATA Data)
              10%                                                                                                                                                                                                                              10%

                                                                                                                                                                                                                                                0%
               0%




                                                                                                                                                                                                                                  Percentage
Percentage




                                                                                                                                                                                                                                               -10%
              -10%
                                                                                                                                                                                                                                               -20%
              -20%
                                                                                                                                                                                                                                               -30%
              -30%                                                                                                                                                                                                                             -40%




                                                                                                                                                                                                                                                                                                                                                          Sep-02


                                                                                                                                                                                                                                                                                                                                                                   Nov-02
                                                                                                                                                                                                                                                                                                                                                 Jul-02
                                                                                                                                                                                                                                                                                                Sep-01


                                                                                                                                                                                                                                                                                                         Nov-01
                                                                                                                                                                                                                                                                             May-01




                                                                                                                                                                                                                                                                                                                                      May-02
                                                                                                                                                                                                                                                      Jan-01


                                                                                                                                                                                                                                                                  Mar-01




                                                                                                                                                                                                                                                                                      Jul-01




                                                                                                                                                                                                                                                                                                                  Jan-02


                                                                                                                                                                                                                                                                                                                             Mar-02
              -40%
                                                                                                      Sep-01




                                                                                                                                                                                              Sep-02
                                                                                                                    Nov-01




                                                                                                                                                                                                                 Nov-02
                                                                 May-01




                                                                                                                                                         May-02
                          Jan-01


                                             Mar-01




                                                                                     Jul-01




                                                                                                                                Jan-02


                                                                                                                                           Mar-02




                                                                                                                                                                           Jul-02
                                                                                                                                                                                                                                                                            Available Seat Miles                           Revenue Passenger Miles



                       Figure 3: Percent Change in Air Route Traffic Control                                                                                                                                                                                   Figure 6: Percent Change in Scheduled Flights and
                             Center Operations from 2000 (FAA Data)                                                                                                                                                                                                Available Seats at the 30 Largest Airports
               5%                                                                                                                                                                                                                                                         12/00 vs. 12/02 (FAA Data)*
               0%
                                                                                                                                                                                                                                               -36%                        -24%                -12%                 0%                     12%
Percentage




              -5%
                                                                                                                                                                                                                                                                                                                                               Fort Lauderdale
             -10%
                                                                                                                                                                                                                                                                                                                                               Kennedy
             -15%                                                                                                                                                                                                                                                                                                                              Cincinnati

             -20%                                                                                                                                                                                                                                                                                                                              Salt Lake City
                                                                                                     Sep-01




                                                                                                                                                                                             Sep-02
                                                                                                                   Nov-01




                                                                                                                                                                                                                Nov-02
                                                               May-01




                                                                                                                                                       May-02
                       Jan-01


                                        Mar-01




                                                                                   Jul-01




                                                                                                                               Jan-02


                                                                                                                                         Mar-02




                                                                                                                                                                      Jul-02




                                                                                                                                                                                                                                                                                                                                               Houston
                                                                                                                                                                                                                                                                                                                                               Chicago O'Hare
                                                                                                                                                                                                                                                                                                                                               Denver
                                                                                                                                                                                                                                                                                                                                               Minneapolis
                        Figure 4: Percentage Change in Scheduled Flights and                                                                                                                                                                                                                                                                   Detroit
                        Available Seats at All Airports from 2000 (FAA Data)                                                                                                                                                                                                                                                                   Atlanta
             15%
                                                                                                                                                                                                                                                                                                                                               Phoenix
             10%
              5%                                                                                                                                                                                                                                                                                                                               San Diego
Percentage




              0%                                                                                                                                                                                                                                                                                                                               Tampa
             -5%                                                                                                                                                                                                                                                                                                                               Philadelphia
             -10%
                                                                                                                                                                                                                                                                                                                                               Baltimore
             -15%
                                                                                                                                                                                                                                                                                                                                               Seattle
             -20%
                                                                                            Sep-01




                                                                                                                                                                  Sep-02
                                                                                                          Nov-01




                                                                                                                                                                                    Nov-02
                                                      May-01




                                                                                                                                         May-02
                     Jan-01

                                    Mar-01




                                                                          Jul-01




                                                                                                                      Jan-02

                                                                                                                                Mar-02




                                                                                                                                                     Jul-02




                                                                                                                                                                                                       Jan-03

                                                                                                                                                                                                                         Mar-03




                                                                                                                                                                                                                                                                                                                                               Las Vegas
                                                                                                                                                                                                                                                                                                                                               Miami

                                                           Scheduled Flights                                                                        Available Seats                                                                                                                                                                            Dallas-Ft. Worth
                                                                                                                                                                                                                                                                                                                                               Charlotte
                                                                                                                                                                                                                                                                                                                                               Orlando
                                   Figure 5: Percent Change in Available Seats at All                                                                                                                                                                                                                                                          Dulles
                                          Airports 12/00 vs. 12/02 (FAA Data)                                                                                                                                                                                                                                                                  Newark
                 West                                                                                                                    Midwest                                                                                                                                                                                               Reagan National
                -12.4%                                                                                                                   -10.4%                                                   Northeast                                                                                                                                    LaGuardia
                                                                                                                                                                                                   -18.3%
                                                                                                                                                                                                                                                                                                                                               Los Angeles
                                                                                                                                                                                                                                                                                                                                               Honolulu
                                                                                                                                                                                                                                                                                                                                               Pittsburgh
                                                                                                                                                                       South                                                                                                                                                                   San Francisco
                                                                                                                                                                      -11.7%                                                                                                                                                                   Boston


                                                                                            National Average -12.6%                                                                                                                                               Scheduled Flights                                         Available Seats


                                   * St Louis was excluded from Figure 6 due to incomplete data. Once this problem is resolved, we plan to include St. Louis in future publications of the metrics.




                                                                                                                                                                                                                                                                                                                                                   Page 5
                                                                                                                              Airline Industry Metrics


                                             Figure 7: Percent Change in Number of                                                                                                       Figure 8: Airline Market Share by Available Seats
                                       Scheduled Flights by Length of Flight 12/00 vs. 12/02                                                                                                                (FAA Data)*
                                                           (FAA Data)                                                                                                    80%                                                             75%
                                                                                                                                                                                   73%                      73%                                                   73%
                                  5%
                                                                                                                                                                         70%
                                  0%                                                                                                                                     60%




                                                                                                                                                         Percentage
                                                                                                                                                                         50%
                   Percentage




                                 -5%                                                                        -2%
                                                                                                                                    -6%                                  40%
                                -10%
                                                                                                                                                                         30%                                                                   19%                       20%
                                -15%                                                                                                                                                     15% 12%                  16%
                                                                                    -13%                                                                                 20%                                              11%
                                                                                                                                                                                                                                                           6%                    8%
                                -20%                                                                                                                                     10%
                                                    -19%
                                -25%                                                                                                                                      0%
                                               0 to 249                        250 to 499                 500 to 999                1,000+                                              12/1999                  12/2000                      12/2001                   12/2002
                                                                                                                                                            * All percentages
                                                                                             Miles                                                            are rounded.
                                                                                                                                                                                                     Majors                   Low Fare                      All Others



                                                Figure 9: Percent Change in Number of                                                                                                      Figure 10: Percent Share of Scheduled Flights
                                           Scheduled Flights by Type of Aircraft 12/00 vs. 12/02                                                                                                 by Type of Aircraft (FAA Data)*
                                                               (FAA Data)                                                                                                 70%
                                                                                                                                                                                   58%                      59%
                                                                                                                                                                                                                                         57%
                                 100%                                                                                               80%                                   60%                                                                                     55%


                                  80%                                                                                                                                     50%



                                                                                                                                                        Percentage
                                  60%
               Percentage




                                                                                                                                                                          40%
                                  40%                                                                                                                                                         30%
                                                                                                            11%                                                           30%                                           26%
                                  20%                                                                                                                                                                                         5                      22%
                                                                                                                                                                                                                                                                        20%    19%
                                   0%                                                                                                                                     20%                                                                  15%
                                                                                                                                                                                                                  10%
                                 -20%                                                                                                                                                    7%         6%                                                     6%                        6%
                                                                                    -18%                                                                                  10%                                                 5%
                                 -40%
                                                    -36%                                                                                                                   0%
                                 -60%
                                                                                                                                                                                         12/1999                  12/2000                      12/2001                  12/2002
                                               Turboprop                       Large Jets                  Piston            Regional Jets
                                                                                                                                                        * All percentages
                                                                                     Type of Aircraft                                                     are rounded.                              Large Jets          Regional Jets                  Turboprop              Piston



                                                     Figure 11: Arrival Delays (FAA Data)                                                                                                       Figure 12: Gate Departure Delays
                                120,000                                                                                                                                                                    (FAA Data)
                                                                                                                                                                       100,000
                                100,000
Number of Delays




                                                                                                                                                                        80,000
                                                                                                                                                    Number of Delays




                                 80,000
                                                                                                                                                                        60,000
                                 60,000

                                 40,000                                                                                                                                 40,000

                                 20,000                                                                                                                                 20,000

                                       0                                                                                                                                    0
                                                                                      May
                                                                              Apr




                                                                                                               Aug




                                                                                                                                      Nov
                                                                                                                              Oct
                                                                  Mar




                                                                                                                                             Dec
                                                      Feb




                                                                                                                       Sep
                                                                                                     Jul
                                              Jan




                                                                                              Jun




                                                                                                                                                                                           Feb




                                                                                                                                                                                                                    May




                                                                                                                                                                                                                                        Jul
                                                                                                                                                                                  Jan




                                                                                                                                                                                                                                  Jun




                                                                                                                                                                                                                                                 Aug
                                                                                                                                                                                                           Apr




                                                                                                                                                                                                                                                                                      Dec
                                                                                                                                                                                                                                                            Sep




                                                                                                                                                                                                                                                                           Nov
                                                                                                                                                                                                     Mar




                                                                                                                                                                                                                                                                  Oct


                                                              1999                          2000                2001                 2002                                                           1999                  2000                       2001                2002



                                               Figure 13: Percent of Flights Arriving Late                                                                                             Figure 14: Percent of Flights Departing Late
                                                              (FAA Data)                                                                                                                               (FAA Data)
                                40%
                                                                                                                                                                         40%

                                30%                                                                                                                                      30%
        Percentage




                                                                                                                                                   Percentage




                                20%                                                                                                                                      20%

                                10%                                                                                                                                      10%

                                0%                                                                                                                                        0%
                                                Feb




                                                                                    May




                                                                                                                                                                                          Feb




                                                                                                                                                                                                                   May
                                                                                                    Jul




                                                                                                                                                                                                                                        Jul
                                        Jan




                                                                                            Jun




                                                                                                              Aug




                                                                                                                                                                                 Jan




                                                                                                                                                                                                                              Jun




                                                                                                                                                                                                                                                 Aug
                                                                        Apr




                                                                                                                                                                                                           Apr
                                                                                                                                             Dec




                                                                                                                                                                                                                                                                                      Dec
                                                                                                                       Sep




                                                                                                                                      Nov




                                                                                                                                                                                                                                                            Sep




                                                                                                                                                                                                                                                                           Nov
                                                            Mar




                                                                                                                                                                                                    Mar
                                                                                                                              Oct




                                                                                                                                                                                                                                                                  Oct




                                                           1999                           2000                 2001                   2002                                                          1999                  2000                       2001                 2002




                                                                                                                                                                                                                                                                   Page 6
                                                                                                                                                                                              Airline Industry Metrics


                                                                      Figure 15: Length of Arrival Delays                                                                                                                                                                   Figure 16: Length of Gate Departure Delays
                                                                                  (FAA Data)                                                                                                                                                                                               (FAA Data)
                               75                                                                                                                                                                                                               75

                               60                                                                                                                                                                                                               60
   Minutes




                                                                                                                                                                                                                                   Minutes
                               45                                                                                                                                                                                                               45

                               30                                                                                                                                                                                                               30

                               15                                                                                                                                                                                                               15

                                0                                                                                                                                                                                                                0




                                                                                                                                                                                                                                                                            Feb




                                                                                                                                                                                                                                                                                                                                    May




                                                                                                                                                                                                                                                                                                                                                          Jul
                                                                                                                                                                                                                                                          Jan




                                                                                                                                                                                                                                                                                                                                                Jun




                                                                                                                                                                                                                                                                                                                                                                    Aug
                                                                                                                                                                                                                                                                                                                 Apr




                                                                                                                                                                                                                                                                                                                                                                                                                                                   Dec
                                                                                                                                                                                                                                                                                                                                                                                  Sep




                                                                                                                                                                                                                                                                                                                                                                                                                         Nov
                                                                                                                                                                                                                                                                                            Mar




                                                                                                                                                                                                                                                                                                                                                                                                      Oct
                                                            Feb




                                                                                                       May




                                                                                                                                       Jul
                                              Jan




                                                                                                                           Jun




                                                                                                                                                        Aug
                                                                                    Apr




                                                                                                                                                                                                                Dec
                                                                                                                                                                           Sep




                                                                                                                                                                                                      Nov
                                                                        Mar




                                                                                                                                                                                              Oct
                                                                      1999                                      2000                                       2001                                     2002                                                                                1999                                                 2000                    2001                                              2002



                                                                      Figure 17: Cancellations (FAA Data)                                                                                                                                            Figure 18: Percent Change in Business and Leisure Travel
                                                                                                                                                                                                                                                                     from 2000 (ATA Data)*
                                75,000
                                                                                                                                                                                                                                                10%
    Number of Cancellations




                                60,000                                                                                                                                                                                                           0%

                                                                                                                                                                                                                                                -10%
                                45,000



                                                                                                                                                                                                                                 Percentage
                                                                                                                                                                                                                                                -20%
                                30,000
                                                                                                                                                                                                                                                -30%
                                15,000                                                                                                                                                                                                          -40%

                                               0                                                                                                                                                                                                -50%




                                                                                                                                                                                                                                                                                           May-01




                                                                                                                                                                                                                                                                                                                                                 Nov-01




                                                                                                                                                                                                                                                                                                                                                                                   May-02




                                                                                                                                                                                                                                                                                                                                                                                                                                                      Nov-02
                                                                                                                                                                                                                                                                                                                                    Sep-01




                                                                                                                                                                                                                                                                                                                                                                                                                                Sep-02
                                                                                                                                                                                                                                                                                                                 Jul-01




                                                                                                                                                                                                                                                                                                                                                                                                       Jul-02
                                                                                                                                                                                                                                                       Jan-01


                                                                                                                                                                                                                                                                        Mar-01




                                                                                                                                                                                                                                                                                                                                                          Jan-02


                                                                                                                                                                                                                                                                                                                                                                    Mar-02
                                                                      Feb




                                                                                                                May




                                                                                                                                                 Jul
                                                        Jan




                                                                                                                                 Jun




                                                                                                                                                            Aug
                                                                                                 Apr




                                                                                                                                                                                                               Dec
                                                                                                                                                                              Sep




                                                                                                                                                                                                      Nov
                                                                                  Mar




                                                                                                                                                                                              Oct




                                                                                  1999                                     2000                                    2001                             2002                               *Analyzed by Deutsche
                                                                                                                                                                                                                                                                                                                                       Business                                             Leisure
                                                                                                                                                                                                                                        Bank Securities Inc.




                                        Figure 19: Percent Change in Yield from 2000 (ATA Data)                                                                                                                                                                     Figure 20: Passenger Load Factor Percentages
                                    10%                                                                                                                                                                                                                                   Actual vs. Breakeven (DOT Data)
                                                                                                                                                                                                                                                100%
                                      5%

                                      0%
  Percentage




                                                                                                                                                                                                                                  Percentage




                                                                                                                                                                                                                                                 80%
                                    -5%

                                -10%                                                                                                                                                                                                             60%

                                -15%
                                                                                                                                                                                                                                                 40%
                                -20%
                                                                                                                                                                                                                                                       1Q 2000



                                                                                                                                                                                                                                                                             2Q 2000



                                                                                                                                                                                                                                                                                                    3Q 2000



                                                                                                                                                                                                                                                                                                                          4Q 2000



                                                                                                                                                                                                                                                                                                                                              1Q 2001




                                                                                                                                                                                                                                                                                                                                                                        3Q 2001



                                                                                                                                                                                                                                                                                                                                                                                            4Q 2001



                                                                                                                                                                                                                                                                                                                                                                                                                      1Q 2002



                                                                                                                                                                                                                                                                                                                                                                                                                                                   2Q 2002
                                                                                                                                                                                                                                                                                                                                                          2Q 2001




                                -25%
                                                                                                       Sep-01




                                                                                                                                                                                                    Sep-02
                                                                                                                       Nov-01




                                                                                                                                                                                                              Nov-02
                                                                        May-01




                                                                                                                                                                          May-02
                                              Jan-01


                                                             Mar-01




                                                                                    Jul-01




                                                                                                                                       Jan-02


                                                                                                                                                       Mar-02




                                                                                                                                                                                          Jul-02




                                                                                                                                                                                                                                                                                                              Actual                                                            Breakeven



                                                                Figure 21: Airline Operating                                                                                                                                                                     Figure 22: Debt to Investment Ratios for All Major
                                                         Revenues vs. Operating Expenses (DOT Data)                                                                                                                                                                            Airlines (DOT Data)
                              $30                                                                                                                                                                                                                80%                                                                                                                                                                               69%
                                                                                                                                                                                                                                                                                                                                                                                    66%                  67%
                              $25                                                                                                                                                                                                                70%                                                                                                                60%
                                                                                                                                                                                                                                                 60%                                                                         53%              54%         54%
                              $20                                                                                                                                                                                                                                50%                   48%                48%
                                                                                                                                                                                                                                   Percentage
Billions




                                                                                                                                                                                                                                                 50%
                              $15
                                                                                                                                                                                                                                                 40%
                              $10
                                                                                                                                                                                                                                                 30%
                               $5                                                                                                                                                                                                                20%
                               $0                                                                                                                                                                                                                10%
                                    1Q 2000



                                                       2Q 2000



                                                                        3Q 2000



                                                                                             4Q 2000



                                                                                                                 1Q 2001




                                                                                                                                                                3Q 2001



                                                                                                                                                                                    4Q 2001



                                                                                                                                                                                                    1Q 2002



                                                                                                                                                                                                                       2Q 2002
                                                                                                                                       2Q 2001




                                                                                                                                                                                                                                                     0%
                                                                                                                                                                                                                                                                  1Q 2000


                                                                                                                                                                                                                                                                                       2Q 2000


                                                                                                                                                                                                                                                                                                              3Q 2000


                                                                                                                                                                                                                                                                                                                               4Q 2000


                                                                                                                                                                                                                                                                                                                                                1Q 2001




                                                                                                                                                                                                                                                                                                                                                                      3Q 2001


                                                                                                                                                                                                                                                                                                                                                                                      4Q 2001


                                                                                                                                                                                                                                                                                                                                                                                                            1Q 2002


                                                                                                                                                                                                                                                                                                                                                                                                                                         2Q 2002
                                                                                                                                                                                                                                                                                                                                                          2Q 2001




                                                                      Operating Revenues                                                                    Operating Expenses




                                                                                                                                                                                                                                                                                                                                                                                                        Page 7
                                                                                                                                                                Airline Industry Metrics


                                         Figure 23: Airline Debt to Investment Ratio                                                                                                                                         Figure 24: Airport and Airway Trust Fund: Estimated
                                        for the Quarter Ending June 2002 (DOT Data)                                                                                                                                         Tax Revenues Pre-September 11 vs. July 2002 (FAA Data)
                      140%                                                                                                                                                                  129%                         $16                                                                                           $14.9
                                                                                                                                                                                                                                                                                                      $14.1
                                                                                                                                                                                                                                                                                    $13.3
                                                                                                                                                                                                                         $14                                        $12.6                                                  $12.8
                      120%                                                                                                                                                                                                                          $11.9                                                 $12.2
                                                                                                                                                                                                                                  $11.2                                                 $11.5
                                                                                                                                                                                                                                                                        $10.9
                      100%                                                                                                                                                                                               $12                            $10.3
    Percentage




                                                                                                                                                                   80%




                                                                                                                                                                                                         Billions
                                                                                                                               73%                 73%                                                                   $10              $8.8
                       80%                                               60%             62%                   64%
                                                     59%
                                                                                                                                                                                                                           $8
                       60%
                                     29%                                                                                                                                                                                   $6
                       40%
                                                                                                                                                                                                                           $4
                       20%
                                                                                                                                                                                                                           $2
                        0%
                                                                                                                                                                                                                           $0
                                                                                           American




                                                                                                                                                                                            Airways
                                                                                                               America




                                                                                                                                                                     Continental
                                                       Alaska




                                                                                                                                 United


                                                                                                                                                   Delta
                                                                         Northwest
                                     Southwest




                                                                                                                West

                                                                                                                                                                                                                                  FY 2002           FY 2003         FY 2004         FY 2005           FY 2006          FY 2007




                                                                                                                                                                                              US
                                                                                                                                                                                                                                                      Pre-September 11                                 July 2002



                        Figure 25: Non-Hub vs. Larger Airports: Percent Change                                                                                                                                                       Figure 26: Percent Change in Available Seats at
                                 in Available Seats from 2000 (FAA Data)                                                                                                                                                              Non-Hub Airports 12/00 vs. 12/02 (FAA Data)
                      10%
                                                                                                                                                                                                                                 West                                                        Midwest
                      0%                                                                                                                                                                                                        -6.7%                                                        -23.1%                      Northeast
Percentage




                                                                                                                                                                                                                                                                                                                          -30.8%
                  -10%


                  -20%


                  -30%                                                                                                                                                                                                                                                                                          South
                                                                                                                                                                                                                                                                                                               -16.9%
                                                                                                                                                      Sep-02

                                                                                                                                                                  Nov-02
                                                                                                                                          Jul-02




                                                                                                                                                                                   Jan-03

                                                                                                                                                                                                Mar-03
                                                                             Sep-01

                                                                                       Nov-01
                                                   May-01




                                                                                                                              May-02
                            Jan-01

                                        Mar-01




                                                                Jul-01




                                                                                                      Jan-02

                                                                                                                  Mar-02




                                                            Larger Airports                                                            Non-Hub Airports                                                                                                         National Average -16.2%



                               Figure 27: Access to Large Airports, Percent Change in                                                                                                                                           Figure 28: Non-Hub Airports - Percent Change in Scheduled
                               Number of Scheduled Flights 12/00 vs. 12/02 (FAA Data)                                                                                                                                                    Flights by Type of Aircraft 12/00 vs. 12/02
                        0%                                                                                                                                                                                                                              (FAA Data)
                                                                                                                                                                                                                           120%                                                                                        96%
                       -5%
                                                                                                                                                                                                                           90%
                                                                                                                                                                                                            Percentage
     Percentage




                      -10%                                                             -8%                                                                                                                                 60%

                                                                                                                               -11%                                                                                        30%                                                               13%
                                                 -12%
                      -15%                                                                                                                                                                                                  0%
                                                                                                                                                                                                                           -30%
                      -20%                                                                                                                                                                                                                   -29%                    -28%
                                                                                                                                                                           -20%                                            -60%
                                                                                                                                                                                                                                           Turboprop               Large Jets                Piston               Regional Jets
                      -25%
                                      Large to Large                        Medium to Large                                Small to Large                      Non-Hub to Large                                                                                      Type of Aircraft



                           Figure 29: Low Fare Airlines - Percent Change in                                                                                                                                                     Figure 30: Essential Air Service Funding and Subsidized
                        Available Seats by Airport Size 12/00 vs. 12/02 (FAA Data)                                                                                                                                                             Communities (DOT Data)
                       20%                                                                                                                                                                                                 $140                                                                                                140
                                                                                                                                11%
                                                 7%
                                                                                       5%
                                                                                                                                                                                                                           $120                                                                                                120
                       10%
                                                                                                                                                                                                                                                                                                                                     EAS Communities
                                                                                                                                                                                                          Appropriations




                                                                                                                                                                                                                           $100                                                                                                100
                                                                                                                                                                                                            (Millions)




                        0%                                                                                                                                                                                                  $80                                                                                                80
         Percentage




                      -10%
                                                                                                                                                                                                                            $60                                                                                                60
                                                                                                                                                                                                                            $40                                                                                                40
                      -20%                                                                                                                                                                                                  $20                                                                                                20
                      -30%                                                                                                                                                 -25%                                              $0                                                                                                0
                                                                                                                                                                                                                                          FY 99             FY 00           FY 01           FY 02             FY 03*
                      -40%
                                                 Large                                Medium                                    Small                               Non-Hub                                    *Projected                           Appropriations                  Subsidized Communities




                                                                                                                                                                                                                                                                                                                  Page 8
                                 Attachment


Note: the following pages contain textual versions of the charts presented
previously in this document. This attachment is provided for electronic
distribution of this report and was not part of the original document.




508 Tables 1-7-03[1]
01/08/2003
Airline Industry Metrics

Figure 1: Percent Change in Revenue Passenger
Enplanements from 2000 (ATA Data)

                     2001             2002
   Month      (Percent Change   (Percent Change
                 from 2000)        from 2000)
January              4.14%           -10.63%
February            -3.31%           -14.87%
March               -1.75%           -11.83%
April               -0.48%           -13.52%
May                 -2.32%           -12.84%
June                -2.23%           -12.83%
July                 0.12%           -10.54%
August               3.19%            -7.84%
September          -34.49%           -15.56%
October            -21.52%           -13.60%
November           -18.54%           -17.96%
December           -13.61%         Not Given

Figure 2: Percent Change in Available Seat Miles Versus
Revenue Passenger Miles from 2000 (ATA Data)

                                   2001                             2002
                  2001                              2002
                                Change in                        Change in
               Change in                         Change in
  Month                          Revenue                          Revenue
              Available Seat                    Available Seat
                                Passenger                        Passenger
                  Miles                             Miles
                                   Miles                            Miles
January           5.04%            5.54%           -8.79%          -7.26%
February         -1.30%           -1.95%          -12.48%        -11.41%
March             0.06%           -0.34%           -9.53%          -7.74%
April             2.16%            0.04%           -7.34%        -10.61%
May               3.41%           -1.83%           -6.65%          -9.62%
June              3.37%           -1.47%           -4.09%          -8.35%
July              4.40%            1.12%           -3.10%          -6.02%
August            3.84%            4.04%           -3.93%          -3.56%
September       -19.07%         -31.86%            -7.50%        -12.03%
October         -15.07%         -20.13%            -8.67%          -9.58%
November        -13.70%         -16.56%            -9.79%        -14.49%
December        -10.09%         -11.93%           Not Given      Not Given
508 Tables 1-7-03[1]
01/08/2003
Figure 3: Percent Change in Air Route Traffic Control Center
Operations from 2000 (FAA Data)

                         2001               2002
     Month         Percent Change     Percent Change
                    in Operations      in Operations
January                 4.51%             -2.63%
February               -3.68%             -8.02%
March                  -2.00%             -7.00%
April                  -0.31%             -2.57%
May                    -1.30%             -3.65%
June                   -2.73%             -4.46%
July                    0.73%             -1.22%
August                 -0.30%             -4.39%
September             -16.38%             -5.01%
October                -8.35%             -3.73%
November               -8.01%             -6.70%
December               -5.18%            Not Given

Figure 4: Percent Change in Scheduled Flights and Available Seats
at All Airports from 2000 (FAA Data)

                 2001        2001        2002        2002        2003         2003
               Percent     Percent     Percent     Percent     Percent      Percent
   Month
               Change      Change      Change      Change      Change      Change in
              in Flights   in Seats   in Flights   in Seats   in Flights      Seats
January          2.39%       3.45%     -10.69%      -9.96%     -10.75%       -10.79%
February         0.24%       1.65%     -10.94%     -10.18%     -11.33%       -11.55%
March           -0.62%       0.53%     -11.23%     -10.07%     -11.66%       -11.81%
April            0.71%       1.38%      -8.47%      -8.06%    Not Given    Not Given
May              0.09%       0.96%      -8.70%      -8.39%    Not Given    Not Given
June            -0.39%       0.93%      -8.39%      -7.12%    Not Given    Not Given
July             1.15%       2.21%      -6.57%      -5.68%    Not Given    Not Given
August          -0.27%       1.37%      -7.33%      -6.75%    Not Given    Not Given
September       -1.46%       0.46%      -9.51%      -9.60%    Not Given    Not Given
October         -4.88%      -3.66%     -10.72%     -10.72%    Not Given    Not Given
November       -15.27%     -14.64%     -11.60%     -11.99%    Not Given    Not Given
December       -14.52%     -14.24%     -11.42%     -12.47%    Not Given    Not Given



508 Tables 1-7-03[1]
01/08/2003
Figure 5: Percent Change in Available Seats at All Airports
December 2000 Versus December 2002 (FAA Data)

                                                              Percent Change
                         Region                                 in Available
                                                                    Seats
Northeast (includes Connecticut, Maine, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania,               -18.3%
Rhode Island, Vermont)
South (includes Alabama, Arkansas, Delaware, Florida,
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
                                                                 -11.7%
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
Mid-west (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North Dakota,           -10.4%
Ohio, South Dakota, Wisconsin)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,              -12.4%
Utah, Washington, Wyoming)
National Average                                                 -12.6%




508 Tables 1-7-03[1]
01/08/2003
Figure 6: Percent Change in Scheduled Flights and Available Seats
at the 30 Largest Airports December 2000 Versus December 2002
(FAA Data)

                                 Percent Change      Percent Change in
Ranking     Largest Airports
                                    in Flights        Available Seats
   1       Fort Lauderdale             -2.2%                1.4%
   2       Kennedy                    -15.2%               -1.1%
   3       Cincinnati                   6.7%               -4.2%
   4       Salt Lake City               7.0%               -4.8%
   5       Houston                     -7.3%               -4.9%
   6       Chicago O'Hare              -2.2%               -5.2%
   7       Denver                      -2.9%               -5.6%
   8       Minneapolis                 -2.0%               -6.1%
   9       Detroit                     -3.0%               -6.8%
   10      Atlanta                     -4.6%               -7.1%
   11      Phoenix                     -6.8%               -8.2%
   12      San Diego                   -9.7%               -8.5%
   13      Tampa                      -17.2%               -9.0%
   14      Philadelphia                -7.9%               -9.5%
   15      Baltimore                  -16.7%              -10.1%
   16      Seattle                    -17.3%              -10.2%
   17      Las Vegas                  -11.3%              -11.8%
   18      Miami                      -24.8%              -12.6%
   19      Dallas-Ft. Worth            -8.0%              -13.0%
   20      Charlotte                  -11.1%              -13.2%
   21      Orlando                    -19.4%              -13.5%
   22      Dulles                     -23.8%              -15.7%
   23      Newark                     -13.0%              -18.3%
   24      Reagan National             -5.8%              -20.0%
   25      LaGuardia                  -20.6%              -22.1%
   26      Los Angeles                -25.0%              -23.5%
   27      Honolulu                   -20.5%              -24.1%
   28      Pittsburgh                 -19.0%              -25.6%
   29      San Francisco              -24.0%              -26.1%
   30      Boston                     -26.4%              -26.3%

Note: Saint Louis was excluded from Figure 6 due to incomplete data. Once
this problem is resolved, we plan to include Saint Louis in future publications
of the metrics.



508 Tables 1-7-03[1]
01/08/2003
Figure 7: Percent Change in Number of Scheduled Flights by Length of
Flight December 2000 Versus December 2002 (FAA Data)

                              2002
   Range in Miles       Percent Change
                           in Flights
0 to 249 miles                 -19%
250 to 499 miles               -13%
500 to 999 miles                -2%
1,000 miles or more             -6%

Figure 8: Airline Market Share by Available Seats (FAA Data)

  Carrier Type      December   December    December    December
                      1999       2000        2001        2002
Majors                73%        73%         75%         73%
Low Fare              15%        16%         19%         20%
All Others            12%        11%          6%          8%

Note: All percentages are rounded.

Figure 9: Percent Change in Number of Scheduled Flights by Type of
Aircraft December 2000 Versus December 2002 (FAA Data)

                    Percent Change
 Aircraft Type       in Flights by
                     Aircraft Type
Turboprop                 -36%
Large Jets                -18%
Piston                     11%
Regional Jets              80%




508 Tables 1-7-03[1]
01/08/2003
Figure 10: Percent Share of Scheduled Flights by Type of Aircraft
(FAA Data)

                       December      December    December    December
  Aircraft Type
                         1999          2000        2001        2002
Large Jets                58%            59%        57%         55%
Regional Jets              7%            10%        15%         20%
Turboprop                 30%            26%        22%         19%
Piston                     6%             5%         6%          6%

Note: All percentages are rounded.

Figure 11: Number of Arrival Delays (FAA Data)

  Month           1999      2000       2001       2002
January           86,811    71,485     69,926     49,657
February          52,772    69,499     72,135     36,355
March             62,668    71,757     73,004     57,281
April             72,648    74,655     61,285     46,842
May               70,944    77,400     56,141     47,038
June              86,682   100,115     72,641     56,011
July              87,078    93,399     69,392     54,355
August            74,482    96,550     76,237     47,160
September         58,649    66,251     38,967     30,598
October           62,387    75,543     39,694     41,050
November          54,570    81,731     38,464     37,357
December          67,667   105,180     52,064   Not Given




508 Tables 1-7-03[1]
01/08/2003
Figure 12: Number of Gate Departure Delays (FAA Data)

   Month          1999      2000       2001       2002
January           77,784    59,344     62,032    40,524
February          45,977    59,316     61,044    30,542
March             55,133    61,678     65,503    49,324
April             58,097    63,372     53,421    37,751
May               57,439    67,571     47,207    37,706
June              72,879    90,115     63,980    49,880
July              77,267    85,049     62,108    49,973
August            65,153    85,760     67,209    42,680
September         48,034    55,667     39,229    25,672
October           52,933    63,742     41,444    32,072
November          47,697    70,997     35,169    28,495
December          58,032    98,386     48,710   Not Given

Figure 13: Percent of Flights Arriving Late (FAA Data)

  Month          1999       2000        2001        2002
January         28.94%     22.90%      21.43%      18.08%
February        18.71%     22.96%      24.47%      14.38%
March           20.25%     21.58%      22.28%      20.13%
April           23.38%     23.46%      19.06%      16.77%
May             22.36%     23.80%      16.89%      16.36%
June            27.48%     31.55%      22.49%      19.65%
July            26.89%     28.33%      20.56%      18.29%
August          22.61%     28.85%      22.38%      15.75%
September       18.79%     20.79%      15.80%      11.12%
October         18.92%     22.58%      14.35%      14.40%
November        17.34%     25.70%      14.48%      14.09%
December        20.83%     33.42%      18.92%     Not Given




508 Tables 1-7-03[1]
01/08/2003
Figure 14: Percent of Flights Departing Late (FAA Data)

  Month          1999      2000        2001        2002
January         25.81%    18.94%      18.96%      14.73%
February        16.26%    19.55%      20.67%      12.06%
March           17.79%    18.51%      19.96%      17.31%
April           18.66%    19.87%      16.59%      13.50%
May             18.05%    20.73%      14.19%      13.10%
June            23.02%    28.31%      19.78%      17.48%
July            23.78%    25.76%      18.37%      16.79%
August          19.73%    25.57%      19.70%      14.24%
September       15.36%    17.46%      15.91%       9.32%
October         16.03%    19.03%      14.96%      11.23%
November        15.13%    22.29%      13.22%      10.73%
December        17.85%    31.18%      17.69%     Not Given

Figure 15: Length of Arrival Delays, Shown in Minutes (FAA Data)

  Month        1999      2000      2001       2002
January        56.54     49.26     47.30      44.47
February       47.17     51.08     50.18      41.05
March          50.16     50.45     49.12      44.32
April          50.11     52.22     50.82      46.58
May            54.29     58.14     46.55      46.83
June           56.58     59.19     56.73      54.53
July           57.68     58.40     52.05      51.18
August         51.32     54.85     55.95      49.14
September      47.27     50.43     55.15      46.78
October        45.16     49.10     43.52      41.97
November       46.43     47.90     43.25      43.33
December       44.11     54.24     41.81    Not Given




508 Tables 1-7-03[1]
01/08/2003
Figure 16: Length of Gate Departure Delays, Shown in Minutes (FAA Data)

  Month       1999      2000     2001      2002
January        57.16    50.87    49.22     46.05
February       49.12    53.36    51.76     43.10
March          51.75    52.87    51.21     45.46
April          52.62    54.47    52.91     48.57
May            56.22    59.65    49.06     48.03
June           57.94    59.19    58.22     53.97
July           58.55    59.57    53.71     51.34
August         53.41    55.93    57.38     49.64
September      50.40    51.98    55.12     47.63
October        47.60    51.65    41.86     44.80
November       48.77    49.83    43.53     45.92
December       45.93    54.68    42.05   Not Given

Figure 17: Number of Cancellations (FAA Data)

  Month        1999     2000       2001       2002
January        19,727   18,512     12,077        4,199
February       11,104   11,477     10,706        2,361
March           9,409    7,585     11,753        3,063
April           6,724    8,853      7,086        2,265
May             8,926   12,835      5,796        2,399
June            9,824   14,407     10,135        4,621
July           11,356   11,985      7,189        3,659
August          8,755   11,538      8,528        2,834
September      11,780    8,057     64,947        1,861
October         7,571    7,977      2,966        2,188
November        5,599    8,150      2,371        1,767
December        6,003   21,333      2,161   Not Given




508 Tables 1-7-03[1]
01/08/2003
Figure 18: Percent Change in Business and Leisure Travel from 2000,
analyzed by Deutsche Bank Securities Incorporated (ATA Data)

                  2001             2001            2002               2002
               Change in        Change in       Change in          Change in
   Month
              Business Year    Leisure Year    Business Year      Leisure Year
               Over Year        Over Year       Over Year          Over Year
January          -10.4%             4.2%          -30.2%             -11.1%
February         -19.2%            -2.9%          -35.1%             -14.6%
March            -20.3%            -0.8%          -33.5%             -11.7%
April            -17.8%             0.3%          -28.7%             -14.6%
May              -22.5%            -0.9%          -32.3%             -13.9%
June             -20.3%            -1.3%          -32.2%             -13.4%
July             -17.7%             0.5%          -25.6%             -11.5%
August           -18.8%             4.2%          -28.2%              -8.3%
September        -47.3%           -34.3%          -30.8%             -16.0%
October          -36.5%           -22.7%          -30.2%             -14.1%
November         -30.8%           -19.7%          -31.5%             -19.0%
December         -23.4%           -15.1%        Not Given          Not Given

Figure 19: Percent Change in Yield from 2000 (ATA Data)

                       2001                       2002
  Month       Percent Change in Yield   Percent Change in Yield
                    Over 2000                 Over 2000
January                 4.06%                    -12.72%
February                0.31%                    -13.32%
March                  -2.49%                    -15.36%
April                  -2.53%                    -14.20%
May                    -7.00%                    -15.88%
June                   -8.38%                    -17.38%
July                   -9.19%                    -17.51%
August                -12.63%                    -20.82%
September             -18.22%                    -17.66%
October               -19.22%                    -18.46%
November              -16.35%                    -19.88%
December              -14.63%                 Not Given




508 Tables 1-7-03[1]
01/08/2003
Figure 20: Passenger Load Factor Percentage: Actual Versus Breakeven
(DOT Data)

                          Actual         Breakeven
       Quarter          Load Factor     Load Factor
First Quarter 2000        68.6%            68.1%
Second Quarter 2000       76.4%            67.1%
Third Quarter 2000        75.8%            70.6%
Fourth Quarter 2000       70.2%            71.9%
First Quarter 2001        68.4%            73.6%
Second Quarter 2001       73.5%            76.1%
Third Quarter 2001        72.4%            87.8%
Fourth Quarter 2001       66.1%            89.5%
First Quarter 2002        70.4%            85.2%
Second Quarter 2002       73.8%            83.1%

Figure 21: Airline Operating Revenues Versus Operating Expenses
(DOT Data)

                         Operating Revenues    Operating Expenses
        Quarter
                             In Billions           In Billions
First Quarter 2000             $22.56                 $21.85
Second Quarter 2000            $25.45                 $22.64
Third Quarter 2000             $25.92                 $23.97
Fourth Quarter 2000            $24.16                 $24.13
First Quarter 2001             $23.27                 $24.13
Second Quarter 2001            $24.26                 $24.98
Third Quarter 2001             $21.16                 $24.37
Fourth Quarter 2001            $16.61                 $20.93
First Quarter 2002             $18.14                 $20.91
Second Quarter 2002            $20.30                 $21.93




508 Tables 1-7-03[1]
01/08/2003
Figure 22: Debt to Investment Ratios for All Major Airlines (DOT Data)

                             Ratio
        Quarter
                          (Percentage)
First Quarter 2000            50%
Second Quarter 2000           48%
Third Quarter 2000            48%
Fourth Quarter 2000           53%
First Quarter 2001            54%
Second Quarter 2001           54%
Third Quarter 2001            60%
Fourth Quarter 2001           66%
First Quarter 2002            67%
Second Quarter 2002           69%

Figure 23: Airline Debt to Investment Ratio for the Quarter Ending
June 2002 (DOT Data)

                     Ratio
    Airlines
                  (Percentage)
Southwest               29%
Alaska                  59%
Northwest               60%
American                62%
America West            64%
United                  73%
Delta                   73%
Continental             80%
US Airways             129%




508 Tables 1-7-03[1]
01/08/2003
Figure 24: Airport and Airway Trust Fund: Estimated Tax Revenue
Pre-September 11 Versus July 2002, Shown in Billions (FAA Data)

 Fiscal Year   Pre-September 11      July 2002
    2002             $11.2              $8.8
    2003             $11.9             $10.3
    2004             $12.6             $10.9
    2005             $13.3             $11.5
    2006             $14.1             $12.2
    2007             $14.9             $12.8

Figure 25: Non-Hub Versus Larger Airports: Percent Change in Available
Seats from 2000 (FAA Data)

             2001         2001       2002         2002        2003          2003
          Non-Hub       Larger     Non-Hub       Larger     Non-Hub       Larger
          Airports      Airports   Airports      Airports   Airports     Airports
           Percent      Percent     Percent      Percent     Percent      Percent
  Month    Change       Change      Change       Change      Change       Change
January     -2.20%        3.62%     -15.60%       -9.78%     -18.77%       -10.48%
February    -5.33%        1.97%     -16.62%       -9.87%     -19.35%       -11.13%
March       -5.96%        0.88%     -16.86%       -9.70%     -19.03%       -11.42%
April       -4.75%        1.69%     -13.60%       -7.77%    Not Given    Not Given
May         -5.61%        1.30%     -14.91%       -8.06%    Not Given    Not Given
June        -6.20%        1.30%     -14.35%       -6.74%    Not Given    Not Given
July        -5.14%        2.60%     -11.83%       -5.35%    Not Given    Not Given
August      -5.56%        1.73%     -10.65%       -6.54%    Not Given    Not Given
September   -7.52%        0.87%     -15.57%       -9.29%    Not Given    Not Given
October     -9.24%       -3.38%     -17.34%      -10.39%    Not Given    Not Given
November -18.47%        -14.45%     -17.70%      -11.71%    Not Given    Not Given
December  -15.71%       -14.16%     -15.42%      -12.32%    Not Given    Not Given




508 Tables 1-7-03[1]
01/08/2003
Figure 26: Percent Change in Available Seats at Non-Hub Airports December
2000 Versus December 2002 (FAA Data)

                                                         Percent Change
                        Region                             in Available
                                                               Seats
Northeast (includes Connecticut, Maine, Massachusetts,
New Hampshire, New Jersey, New York, Pennsylvania,            -30.8%
Rhode Island, Vermont)
Mid-west (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North Dakota,        -23.1%
Ohio, South Dakota, Wisconsin)
South (includes Alabama, Arkansas, Delaware, Florida,
Georgia, Kentucky, Louisiana, Maryland, Mississippi,
                                                              -16.9%
North Carolina, Oklahoma, South Carolina, Tennessee,
Texas, Virginia, West Virginia)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon,            -6.7%
Utah, Washington, Wyoming)
National Average                                              -16.2%

Figure 27: Access to Large Airports, Percent Change in Number of
Scheduled Flights December 2000 Versus December 2002 (FAA Data)

                                       Percent Change
          Combinations                2000 Versus 2002
Large Hub to Large Hub                      -12%
Medium Hub to Large Hub                      -8%
Small Hub to Large Hub                      -11%
Non-Hub to Large Hub                        -20%




508 Tables 1-7-03[1]
01/08/2003
Figure 28: Non-Hub Airports – Percent Change in Scheduled Flights by Type
of Aircraft December 2000 versus December 2002 (FAA Data)

                       Percent Change
 Aircraft Type
                  December 2000 Versus 2002
Turboprop                   -29%
Large Jets                  -28%
Piston                       13%
Regional Jets                96%

Figure 29: Low Fare Airlines - Percent Change in Available Seats by
Airport Size December 2000 Versus December 2002 (FAA Data)

                        Percent Change In
   Airport Size
                         Available Seats
Large                           7%
Medium                          5%
Small                          11%
Non-Hub                       -25%

Figure 30: Essential Air Service Funding and Subsidized Communities
(DOT Data)

                       Appropriations   Number of Communities
   Fiscal Year
                        In Millions          Supported
1999                        $50                  100
2000                        $50                  106
2001                        $50                  115
2002                       $113                  123
Projected 2003             $113                  125




508 Tables 1-7-03[1]
01/08/2003
